SDCCU CASH REWARDS CASH BACK PROGRAM
TERMS AND CONDITIONS
Thank you for choosing San Diego County Credit Union’s (“SDCCU’s”) Cash Rewards cash back program (“Program”)
®
®
which pays a statement credit to your SDCCU Visa credit card loan account in each month that you make qualifying
purchases using your enrolled SDCCU credit card. Please review the following terms carefully.
ELIGIBILITY & PARTICIPATION
You qualified for this Program by having an excellent credit history at the time of your credit card application. To remain
eligible for the Program, you must maintain your SDCCU credit card account in good standing and maintain your
excellent credit rating. Delinquent payments, over-the-limit status and returned items are all examples of reasons your
eligibility in the Program may be suspended and/or terminated.
While the Program may not be combined with other rewards programs such as the SDCCU Fly Miles Plus™ Rewards
TM
TM
Program, it can be combined with SDCCU Dining Deals and SDCCU Paybacks . You may cancel your participation
in the Program by notifying SDCCU in writing at any time; however, should you do so, you forfeit that month’s reward
amount. SDCCU reserves the right to approve, deny or revoke membership in the Program for any reason including, but
not limited to, a deterioration of your credit rating.
STATEMENT CREDITS
In each statement cycle, you will be credited a percentage of the U.S. dollar value of net purchases made during that
same cycle. Currently, the rewards percentage is 1.00%; however, this percentage may change at our discretion at any
time without advance notice to you. In addition, from time to time we may offer temporary promotional rewards with
varying reward percentages based on purchase type or other factors. Receipt of a statement credit does not affect your
nd
st
responsibility to pay your minimum monthly payment. Each statement cycle is the 2 of each calendar month to the 1
nd
st
of the next month – for example, January 2 to February 1 . Net purchases means new purchases of goods and
services made by you or any authorized user of the account minus any returns or refunds made after you enroll. Your
enrollment begins when you are approved for the program (maximum of three (3) business days after your request is
approved). Reward amount is not paid on cash advances, balance transfers, overdraft transfers, convenience checks,
unauthorized charges, disputed charges and fees of any kind, such as finance charges, late payment fees, balance
transfer fees, convenience check fees, cash advance fees or program fees.
Rewards have no value except as used in accordance with these Terms and Conditions. There is no accrual of credits.
Credits are calculated and posted at the end of each statement cycle. If the account is closed, or the Program is
cancelled during the middle of the cycle period, the statement credit will not be considered earned and will not be paid.
PROGRAM TERMS
Questions as to what constitutes Program eligibility or a qualifying transaction, as well as any exceptions, are at the sole
discretion of SDCCU. SDCCU reserves the right to verify and adjust statement credits at any time prior to or following
the posting of the statement credit. Fraud or abuse relating to statement credits may result in cancellation of the
Program as well as a reversal of previous statement credits paid.
From time to time, SDCCU may change the terms of the Program. When changes are made, SDCCU will notify you as
provided by law. It is your responsibility to review communications regarding the Program terms to be aware of any
changes. SDCCU reserves the right to change or terminate any Program feature, including, without limitation,
participation fees, rewards percentage or crediting criteria and to cancel the Program at any time without notice.
These Program Terms and Conditions are in addition to the Account Disclosures And Agreement, your credit card
agreement and, if applicable, other agreements in effect between you and SDCCU.

Voted BEST Credit Union – U-T San Diego Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA.
REV. 09.12.14

